No. 19-1173

Supreme Court of the United States
COMCAST CORPORATION, et al.,
Petitioners,
v.
INTERNATIONAL TRADE COMMISSION, et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
R STREET INSTITUTE, THE INNOVATION DEFENSE FOUNDATION, LINCOLN NETWORK, AND THE ELECTRONIC FRONTIER FOUNDATION AS AMICI CURIAE IN SUPPORT OF THE PETITION contains 5,142 words, exempting parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Respectfully submitted,
Dated: April 24, 2020
CHARLES DUAN
R STREET INSTITUTE
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org
Counsel for amici curiae

